Supreme Court, U.S.
FILED

Supreme Court of tlje tHnltet* States;

AUG 0 3 2921
OFFICE OF THE CLERK

i

TYRONE CAMMON,
Petitioner,;

■

vs.
UNITED STATES OF AMERICA,
Respondent

i

ON PETITION FORA WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
i

Tyrone Cammon
Petitioner
65353-060
P.O. Box 2000
Bruceton Mills, WV 26525

BECEWeD
miguW'

...J

QUESTIONS PRESENTED
Petitioner Tyrone Cammon had a failure to appear warrant pending. Police received a tip
that he was staying at his sister’s residence so they staked it out. At one point, police observed
and identified Petitioner coming out of the residence, going to a car and retrieving something.
Police could have but did not arrest him at that point. Instead, they waited until he went back into
his sister’s residence and then entered the residence without a search warrant, arrested Petitioner
and seized drug and gun evidence in a purported “protective sweep”. Counsel filed a motion to
suppress arguing, inter alia, that Steagald v. United States, 451 U.S. 204 (1981) required that the
evidence seized in the protective sweep be suppressed. The lower courts rejected this argument
and held that Steagald only protected Petitioner’s sister whose residence the police had entered.
The courts held that case was controlled instead by Payton v. New York, 445 U.S. 573 (1980)
which allows police to enter an arrestee’s residence armed only with an arrest warrant. The
question whether Steagald protects an arrestee in a third party’s residence was specifically left
open in Steagald and has never been decided by this Court.
1.)

Whether, in light of Minnesota v. Olson, 495 U.S. 91, 96-97 (1990)., the lower

courts erred in holding that Payton v. New York, 445 U.S. 573 (1980) controlled the lawfulness of
the warrantless search of the third party residence for Petitioner-Arrestee instead of Steagald v.
United States, 451 U.S. 204 (1981)?
2.)

Where multiple additional errors affected petitioner’s conviction and/or sentence

in the courts below, should this Court exercise it’s supervisory power to vacate his conviction
and sentence?

i

.,1

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
The caption of the case in this Court contains the names of all parties to the proceedings
in the United States Court of Appeals for the Sixth Circuit.
More specifically, the Petitioner Tyrone Cammon and the Respondent United States of
America are the only parties. Neither party is a company, corporation, or subsidiary of any
company or corporation.

n

!

TABLE OF CONTENTS

Questions Presented

1

List of Parties to the Proceedings
in the Courts Below........

n

Table of Contents

111

Table ofAuthorities.

v

Petition for a Writ of Certiorari

1

Opinions Below

1

Statement of Jurisdiction

2

Constitutional Provisions,
Treaties, Statutes, Rules,
and Regulations Involved

3

Statement of the Case

14

Reasons for Granting the Writ

18

1.)

1A.)

IB.)

THIS COURT SHOULD GRANT MR. CAMMON’S PETITION
FOR WRIT OF CERTIORARI TO RESOLVE A CONFLICT
BETWEEN PAYTON v. NEW YORK AND STEAGALD v. UNITED
STATES IN LIGHT OF MINNESOTA v. OLSON..................................

18

WhUe Payton v. New York Allows Warrantless Entry To An Arrestee’s
Residence To Execute The Warrant And Steagald v. United States
Protects A Third Party’s Fourth Amendment Right To A Search
Warrant Before Police Can Enter To Arrest Someone Else Present In
The Residence, And Minnesota v. Olson Protects Overnight Guests In
A Residence, The Court Has Never Decided Whether Steagald
Protects Overnight Guests Creating Confusion In The Lower Courts...

18

In Light Of Minnesota v. Olson, 495 U.S. 91, 96-97 (1990)., The Lower
Courts Erred In Holding That Payton v. New York, 445 U.S. 573 (1980)
Controlled The Lawfulness Of The Warrantless Search Of The Third
Party Residence For Petitioner-Arrestee Instead Of Steagald v. United
States, 451 U.S.204 (1981)......................................................................

20

m

J

2.)

2A.)

THIS COURT SHOULD GRANT MR. CAMMON’S PETITION
FOR WRIT OF CERTIORARI BECAUSE THE COURT OF
APPEALS FOR THE SIXTH CIRCUIT HAS SO FAR DEPARTED
FROM THE ACCEPTED AND USUAL COURSE OF JUDICIAL
PROCEEDINGS AS TO CALL FOR AN EXERCISE OF THIS
COURT’S POWER OF SUPERVISION................................................

21

Multiple Errors In The Courts Below Mandate That Mr. Cammon’s
Conviction And/Or Sentence Be Vacated...............................................

21

Conclusion

25

Appendix

26

USCA Opinion Dated 3-9-21

A

USDC Judgment & Commitment Order Entered 12-13-19

B

USDC Order Denying Motion To Suppress Entered 2-13-19

C

iv

TABLE OF AUTHORITIES
Page:

Cases
Benanti v. United States,
21, 24

355 US. 96 (1957)
Borden v. United States,
No. 19-5410,

21

2021 U.S. LEXIS 2990, at *1-4 (6-10-21)
Bradley v. School Board of City of Richmond,

23

416 U.S. 696, 710-11 (1974)
Bradley v. United States,

23

410 U.S. 605, 607-08 (1973)
Dyerv. Calderon,
151 F.3d 970;
1998 U.S. App. LEXIS 18171 (9th Cir. 1998)

22

Elkins v. United States,
21, 24

364 U.S. 206(1960)
GACA v. United States,

21, 24

411 U.S. 618 (1973)
Kaiser Aluminum & Chemical Corp. v. Bonjorno,
494 U.S. 827, 841 & n.l (1990)

23

(Scalia, J., concurring).

v

Lawrence v. Chater,
516 U.S. 163, 167-68, 133 L. Ed 2d 545,
25

116 S. Ct. 604(1996)
McDonald v. United States,
335 US. 451, 93 L. Ed 153,

22

69 S. Ct. 191(1948)
McNabb v. United States,

21, 24

318 US. 332 (1943)
Minnesota v. Carter,

19,20

525 U.S. 83 (1999)
Minnesota v. Olson,

passim

495 U.S. 91, 96-97(1990)
Payton v. New York,

passim

445 U.S. 573 (1980)
Reav. United States,
350 U.S. 214 (1956)

21, 24

Renigar v. United States,
172 F. 646; 1909 U.S. App. LEXIS 5021 (4th Cir. 1909)

21

Steagald v. United States,
451 U.S 204 (1981).........................................................

18, 19, 25

United States v. Agnew,
407 F.3d 193, 197 (3d Cir. 2005)

19

vi

United States v. Behrens,
21, 24

375 U.S. 162 (1963)
United States v. Bohannon,

19, 20

824 F.3d 242, 249-50 (2d Cir. 2016).
United States v. Common,
2021 U.S. App. LEXIS 7094 **5-6;
849 Fed. Appx. 541; 2021 FED App. 0122N

17, 19

(6th Cir. 3-9-21)..............................................
United States v. Granderson,

23

511 U.S 39, 54 (1994)
United States v. Hollis,
780 F.3d 1064, 1068-69 (ll,h Cir. 2015)

19

United States v. Jackson,
576 F.3d 465, 468 (7th Cir. 2009)

19

United States v. Jacobs,
21, 24

429 U.S. 909 (1976)
United States v. Kaylor,
877 F.2d 658, 663 &n.5 (8th Cir. 1989)

19

United States v. Kern,
336 F. App ’x 296, 297-98 (4th Cir. 2009)

19

United States v. McCarson,
527F.3d 170, 172-73, 381 U.S. App. D.C. 219 (D.C. Cir. 2008)

Vll

19

United States v. Pruitt,
458 F.3d 477, 482 (6th Cir. 2006)

19

United States v. Santos,
23

553 U.S. 507, 514 (2008)
United States v. Schooner Peggy,

23

1 Cranch 103 (1801)
United States v. Underwood,

19

717 F.2d 482, 484 (9th Cir. 1983) (en banc)
Yeaton v. United States,

23

5 Cranch 281, 283 (1809)

Statutes
14, 15, 16

18 US.C. § 922(g)(1)

12

18 U.S.C. § 924(c)

15, 16

18 US.C. § 924(c)(1)(A)

14, 15, 16

18U.S.C. §924(c)(l)(A)(i)

3, 12

21 US.C. §841
21 US.C. §841(a)(1)

14, 15, 16

21 U.S.C § 841(b)(1)(B)

14, 15, 16

21 U.S.C.§ 841 (b)(1)(C)

14, 15, 16

21 U.S.C. §846.

12
2

28U.S.C. §1254(1)
First Step Act,
115P.L. 391; 132 Stat. 5194;

vm

2018 Enacted S. 756;
22

115 Enacted S. 756(12-21-2018)
Other Authorities

21

U.S.C.A. Fifth Amendment

passim

U.S.C.A. Fourth Amendment

22

U.S.C.A. Sixth Amendment
Rules
Fed. R. Crim. P. 52.

13

Supreme Court Rule 10

18

ix

PETITION FOR A WRIT OF CERTIORARI
Tyrone Cammon, the Petitioner herein, respectfully prays that a writ of certiorari issue to
review the judgment of the United States Court of Appeals for the Sixth Circuit, entered in the
above entitled case on 3-9-21.
OPINIONS BELOW
The 3-9-21 opinion of the Court of Appeals for the Sixth Circuit, whose judgment is
herein sought to be reviewed, is an unpublished decision reported at 2021 U.S. App. LEXIS
7094 *; 849 Fed. Appx. 541; 2021 FED App. 0122N (6th Cir.) and is reprinted in the separate
Appendix A to this Petition.
The prior opinion and judgment (Judgment & Commitment Order) of the United States
District Court for the Northern District of Ohio, was entered on 12-13-19, is an unpublished
decision, and is reprinted in the separate Appendix B to this Petition.
The prior opinion and judgment of the United States District Court for the Northern
District of Ohio denying Mr. Cammon’s motion to suppress was handed down from the bench on
2-13-19 and entered in the docket 2-14-19. It is an unpublished decision, and is reprinted in the
separate Appendix C to this Petition.

1

STATEMENT OF JURISDICTION
The judgment of the Court of Appeals was entered on 3-9-21. The jurisdiction of this
Court is invoked pursuant to 28 U.S.C. § 1254(1).

2

CONSTITUTIONAL PROVISIONS. TREATIES. STATUTES.
RULES AND REGULATIONS INVOLVED
The Fourth Amendment to the Constitution of the United States provides as follows:
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized. Id.
21 U.S.C. § 841 provides in relevant part:
(a) Unlawful acts. Except as authorized by this title, it shall be unlawful
for any person knowingly or intentionally(1) to manufacture, distribute, or dispense, or possess with intent to
manufacture, distribute, or dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess with intent to distribute
or dispense, a counterfeit substance.
(b) Penalties. Except as otherwise provided in section 409, 418, 419, or
420 [21 USCS § 849, 859, 860, or 861], any person who violates subsection (a) of
this section shall be sentenced as follows:
(1) (A) In the case of a violation of subsection (a) of this section
involving—
(i) 1 kilogram or more of a mixture or substance containing a
detectable amount of heroin;
(ii) 5 kilograms or more of a mixture or substance containing a
detectable amount of~
(1) coca leaves, except coca leaves and extracts of coca leaves from
which cocaine, eegonine, and derivatives of eegonine or their salts have been
removed;
(II) cocaine, its salts, optical and geometric isomers, and salts of
isomers;
(III) eegonine, its derivatives, their salts, isomers, and salts of
isomers; or
(IV) any compound, mixture, or preparation which contains any
quantity of any ofthe substances referred to in subclauses (l) through (111);
(iii) 280 grams or more of a mixture or substance described in clause
(ii) which contains cocaine base;
(iv) 100 grams or more of phencyclidine (PCP) or 1 kilogram or
more of a mixture or substance containing a detectable amount of phencyclidine
(PCP);
(v) 10 grams or more of a mixture or substance containing a
detectable amount of lysergic acid diethylamide (LSD);
3

(vi) 400 grains or more of a mixture or substance containing a
detectable amount ofN-phenyl-N- [l-(2-phenylethyl)-4-piperidinyI] propanamide
or 100 grams or more of a mixture or substance containing a detectable amount of
any analogue ofN-phenyl-N- [l-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 1000 kilograms or more of a mixture or substance containing a
detectable amount of marihuana, or 1,000 or more marihuana plants regardless of
weight; or
(viii) 50 grams or more of methamphetamine, its salts, isomers, and
salts of its isomers or 500 grams or more of a mixture or substance containing a
detectable amount of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may
not be less than 10 years or more than life and if death or serious bodily injury
results from the use of such substance shall be not less than 20 years or more than
life, a fine not to exceed the greater of that authorized in accordance with the
provisions of title 18, United States Code, or $ 10,000,000 if the defendant is an
individual or $ 50,000,000 if the defendant is other than an individual, or both. If
any person commits such a violation after a prior conviction for a felony drug
offense has become final, such person shall be sentenced to a term of
imprisonment which may not be less than 20 years and not more than life
imprisonment and if death or serious bodily injury results from the use of such
substance shall be sentenced to life imprisonment, a fine not to exceed the greater
of twice that authorized in accordance with the provisions of title 18, United
States Code, or $ 20,000,000 if the defendant is an individual or $ 75,000,000 if
the defendant is other than an individual, or both. If any person commits a
violation of this subparagraph or of section 409, 418, 419, or 420 [21 USCS §
849, 859, 860, or 861] after two or more prior convictions for a felony drug
offense have become final, such person shall be sentenced to a mandatory term of
life imprisonment without release and fined in accordance with the preceding
sentence. Notwithstanding section 3583 of title 18, any sentence under this
subparagraph shall, in the absence of such a prior conviction, impose a term of
supervised release of at least 5 years in addition to such term of imprisonment and
shall, if there was such a prior conviction, impose a term of supervised release of
at least 10 years in addition to such term of imprisonment. Notwithstanding any
other provision of law, the court shall not place on probation or suspend the
sentence of any person sentenced under this subparagraph. No person sentenced
under this subparagraph shall be eligible for parole during the term of
imprisonment imposed therein.
(B) In the case of a violation of subsection (a) of this section
involving—
(i) 100 grams or more of a mixture or substance containing a
detectable amount ofheroin;
(ii) 500 grams or more of a mixture or substance containing a
detectable amount of(1) coca leaves, except coca leaves and extracts of coca leaves from
which cocaine, ecgonine, and derivatives of ecgonine or their salts have been
removed;
4

(il) cocaine, its salts, optical and geometric isomers, and salts of
isomers;
(111) ecgonine, its derivatives, their salts, isomers, and salts of
isomers; or
(IV) any compound, mixture, or preparation which contains any
quantity of any of the substances referred to in subclauses (1) through (111);
(iii) 28 grams or more of a mixture or substance described in clause
(ii) which contains cocaine base;
(iv) 10 grams or more of phencyclidine (PCP) or 100 grams or more
of a mixture or substance containing a detectable amount of phencyclidine (PCP);
(v) 1 gram or more of a mixture or substance containing a detectable
amount of lysergic acid diethylamide (LSD);
(vi) 40 grams or more of a mixture or substance containing a
detectable amount ofN-phenyl-N- [l-(2-phenylethyl)-4-piperidinyl] propanamide
or 10 grams or more of a mixture or substance containing a detectable amount of
any analogue ofN-phenyl-N- [l-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 100 kilograms or more of a mixture or substance containing a
detectable amount of marihuana, or 100 or more marihuana plants regardless of
weight; or
(viii) 5 grams or more of methamphetamine, its salts, isomers, and
salts of its isomers or 50 grams or more of a mixture or substance containing a
detectable amount of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may
not be less than 5 years and not more than 40 years and if death or serious bodily
injury results from the use of such substance shall be not less than 20 years or
more than life, a fine not to exceed the greater of that authorized in accordance
with the provisions of title 18, United States Code, or $ 5,000,000 if the defendant
is an individual or $ 25,000,000 if the defendant is other than an individual, or
both. If any person commits such a violation after a prior conviction for a felony
drug offense has become final, such person shall be sentenced to a term of
imprisonment which may not be less than 10 years and not more than life
imprisonment and if death or serious bodily injury results from the use of such
substance shall be sentenced to life imprisonment, a fine not to exceed the greater
of twice that authorized in accordance with the provisions of title 18, United
States Code, or $ 8,000,000 if the defendant is an individual or $ 50,000,000 if the
defendant is other than an individual, or both. Notwithstanding section 3583 of
title 18, any sentence imposed under this subparagraph shall, in the absence of
such a prior conviction, include a term of supervised release of at least 4 years in
addition to such term of imprisonment and shall, if there was such a prior
conviction, include a term of supervised release of at least 8 years in addition to
such term of imprisonment. Notwithstanding any other provision of law, the court
shall not place on probation or suspend the sentence of any person sentenced
under this subparagraph. No person sentenced under this subparagraph shall be
eligible for parole during the term of imprisonment imposed therein.
(C) In the case of a controlled substance in schedule I or II, gamma
hydroxybutyric acid (including when scheduled as an approved drug product for
5

purposes of section 3(a)(1)(B) of the Hillory J. Farias and Samantha Reid DateRape Drug Prohibition Act of 1999 [21 USCS § 812 note]), or 1 gram of
flunitrazepam, except as provided in subparagraphs (A), (B), and (D), such person
shall be sentenced to a term of imprisonment of not more than 20 years and if
death or serious bodily injury results from the use of such substance shall be
sentenced to a term of imprisonment of not less than twenty years or more than
life, a fine not to exceed the greater of that authorized in accordance with the
provisions of title 18, United States Code, or $ 1,000,000 if the defendant is an
individual or $ 5,000,000 if the defendant is other than an individual, or both, if
any person commits such a violation after a prior conviction for a felony drug
offense has become final, such person shall be sentenced to a term of
imprisonment of not more than 30 years and if death or serious bodily injury
results from the use of such substance shall be sentenced to life imprisonment, a
fine not to exceed the greater of twice that authorized in accordance with the
provisions of title 18, United States Code, or $ 2,000,000 if the defendant is an
individual or $ 10,000,000 if the defendant is other than an individual, or both.
Notwithstanding section 3583 of title 18, any sentence imposing a term of
imprisonment under this paragraph shall, in the absence of such a prior
conviction, impose a term of supervised release of at least 3 years in addition to
such term of imprisonment and shall, if there was such a prior conviction, impose
a term of supervised release of at least 6 years in addition to such term of
imprisonment. Notwithstanding any other provision of law, the court shall not
place on probation or suspend the sentence of any person sentenced under the
provisions of this subparagraph which provide for a mandatory term of
imprisonment if death or serious bodily injury results, nor shall a person so
sentenced be eligible for parole during the term of such a sentence.
(D) In the case of less than 50 kilograms of marihuana, except in the
case of 50 or more marihuana plants regardless of weight, 10 kilograms of
hashish, or one kilogram of hashish oil, such person shall, except as provided in
paragraphs (4) and (5) of this subsection, be sentenced to a term of imprisonment
of not more than 5 years, a fine not to exceed the greater of that authorized in
accordance with the provisions of title 18, United States Code, or $ 250,000 if the
defendant is an individual or $ 1,000,000 if the defendant is other than an
individual, or both. If any person commits such a violation after a prior conviction
for a felony drug offense has become final, such person shall be sentenced to a
term of imprisonment of not more than 10 years, a fine not to exceed the greater
of twice that authorized in accordance with the provisions of title 18, United
States Code, or $ 500,000 if the defendant is an individual or $ 2,000,000 if the
defendant is other than an individual, or both. Notwithstanding section 3583 of
title 18, any sentence imposing a term of imprisonment under this paragraph shall,
in the absence of such a prior conviction, impose a term of supervised release of
at least 2 years in addition to such term of imprisonment and shall, if there was
such a prior conviction, impose a special parole term of at least 4 years in addition
to such term of imprisonment.
(E) (i) Except as provided in subparagraphs (C) and (D), in the case of
any controlled substance in schedule Ill, such person shall be sentenced to a term
6

of imprisonment of not more than 10 years and if death or serious bodily injury
results from the use of such substance shall be sentenced to a term of
imprisonment of not more than 15 years, a fine not to exceed the greater of that
authorized in accordance with the provisions of title 18, United States Code, or $
500,000 if the defendant is an individual or $ 2,500,000 if the defendant is other
than an individual, or both.
(ii) If any person commits such a violation after a prior conviction
for a felony drug offense has become final, such person shall be sentenced to a
term of imprisonment of not more than 20 years and if death or serious bodily
injury results from the use of such substance shall be sentenced to a term of
imprisonment of not more than 30 years, a fine not to exceed the greater of twice
that authorized in accordance with the provisions of title 18, United States Code,
or $ 1,000,000 if the defendant is an individual or $ 5,000,000 if the defendant is
other than an individual, or both.
(iii) Any sentence imposing a term of imprisonment under this
subparagraph shall, in the absence of such a prior conviction, impose a term of
supervised release of at least 2 years in addition to such term of imprisonment and
shall, if there was such a prior conviction, impose a term of supervised release of
at least 4 years in addition to such term of imprisonment.
(2) In the case of a controlled substance in schedule IV, such person
shall be sentenced to a term of imprisonment of not more than 5 years, a fine not
to exceed the greater of that authorized in accordance with the provisions of title
18, United States Code, or $ 250,000 if the defendant is an individual or $
1,000,000 if the defendant is other than an individual, or both. If any person
commits such a violation after a prior conviction for a felony drug offense has
become final, such person shall be sentenced to a term of imprisonment of not
more than 10 years, a fine not to exceed the greater of twice that authorized in
accordance with the provisions of title 18, United States Code, or $ 500,000 if the
defendant is an individual or $ 2,000,000 if the defendant is other than an
individual, or both. Any sentence imposing a term of imprisonment under this
paragraph shall, in the absence of such a prior conviction, impose a term of
supervised release of at least one year in addition to such term of imprisonment
and shall, if there was such a prior conviction, impose a special parole term of at
least 2 years in addition to such term of imprisonment.
(3) In the case of a controlled substance in schedule V, such person shall
be sentenced to a term of imprisonment of not more than one year, a fine not to
exceed the greater of that authorized in accordance with the provisions of title 18,
United States Code, or $ 100,000 if the defendant is an individual or $ 250,000 if
the defendant is other than an individual, or both. If any person commits such a
violation after a prior conviction for a felony drug offense has become final, such
person shall be sentenced to a term of imprisonment of not more than 4 years, a
fine not to exceed the greater of twice that authorized in accordance with the
provisions of title 18, United States Code, or $ 200,000 if the defendant is an
individual or $ 500,000 if the defendant is other than an individual, or both. Any
sentence imposing a term of imprisonment under this paragraph may, if there was
7

a prior conviction, impose a term of supervised release of not more than 1 year, in
addition to such term of imprisonment.
(4) Notwithstanding paragraph (1)(D) of this subsection, any person who
violates subsection (a) of this section by distributing a small amount of marihuana
for no remuneration shall be treated as provided in section 404 [21 USCS § 844]
and section 3607 oftitle 18, United States Code.
(5) Any person who violates subsection (a) of this section by cultivating
or manufacturing a controlled substance on Federal property shall be imprisoned
as provided in this subsection and shall be fined any amount not to exceed(A) the amount authorized in accordance with this section;
(B) the amount authorized in accordance with the provisions of title
18, United States Code;
(C) $ 500,000 if the defendant is an individual; or
(D) $ 1,000,000 if the defendant is other than an individual; or both.
(6) Any person who violates subsection (a), or attempts to do so, and
knowingly or intentionally uses a poison, chemical, or other hazardous substance
on Federal land, and, by such use—
(A) creates a serious hazard to humans, wildlife, or domestic animals,
(B) degrades or harms the environment or natural resources, or
(C) pollutes an aquifer, spring, stream, river, or body of water,
shall be fined in accordance with title 18, United States Code, or
imprisoned not more than five years, or both.
(7) Penalties for distribution.
(A) In general. Whoever, with intent to commit a crime of violence, as
defined in section 16 of title 18, United States Code (including rape), against an
individual, violates subsection (a) by distributing a controlled substance or
controlled substance analogue to that individual without that individual's
knowledge, shall be imprisoned not more than 20 years and fined in accordance
with title 18, United States Code.
(B) Definition. For purposes of this paragraph, the term "without that
individual's knowledge" means that the individual is unaware that a substance
with the ability to alter that individual's ability to appraise conduct or to decline
participation in or communicate unwillingness to participate in conduct is
administered to the individual.
(c) Offenses involving listed chemicals. Any person who knowingly or
intentionally(1) possesses a listed chemical with intent to manufacture a controlled
substance except as authorized by this title;
(2) possesses or distributes a listed chemical knowing, or having
reasonable cause to believe, that the listed chemical will be used to manufacture a
controlled substance except as authorized by this title; or
(3) with the intent of causing the evasion of the recordkeeping or
reporting requirements of section 310 [21 USCS § 830], or the regulations issued
under that section, receives or distributes a reportable amount of any listed
8

chemical in units small enough so that the making of records or filing of reports
under that section is not required;
shall be fined in accordance with title 18, United States Code, or
imprisoned not more than 20 years in the case of a violation of paragraph (1) or
(2) involving a list 1 chemical or not more than 10 years in the case of a violation
of this subsection other than a violation of paragraph (1) or (2) involving a list 1
chemical, or both.
(d) Boobytraps on Federal property; penalties; "boobytrap" defined.
(1) Any person who assembles, maintains, places, or causes to be placed
a boobytrap on Federal property where a controlled substance is being
manufactured, distributed, or dispensed shall be sentenced to a term of
imprisonment for not more than 10 years or fined under title 18, United States
Code, or both.
(2) If any person commits such a violation after 1 or more prior
convictions for an offense punishable under this subsection, such person shall be
sentenced to a term of imprisonment of not more than 20 years or fined under title
18, United States Code, or both.
(3) For the purposes of this subsection, the term "boobytrap" means any
concealed or camouflaged device designed to cause bodily injury when triggered
by any action of any unsuspecting person making contact with the device. Such
term includes guns, ammunition, or explosive devices attached to trip wires or
other triggering mechanisms, sharpened stakes, and lines or wires with hooks
attached.
(e) Ten-year injunction as additional penalty. In addition to any other
applicable penalty, any person convicted of a felony violation of this section
relating to the receipt, distribution, manufacture, exportation, or importation of a
listed chemical may be enjoined from engaging in any transaction involving a
listed chemical for not more than ten years.
(f) Wrongful distribution or possession of listed chemicals.
(1) Whoever knowingly distributes a listed chemical in violation of this
title (other than in violation of a recordkeeping or reporting requirement of section
310 [21 USCS § 830]) shall, except to the extent that paragraph (12), (13), or (14)
of section 402(a) [21 USCS § 842(a)] applies, be fined under title 18, United
States Code, or imprisoned not more than 5 years, or both.
(2) Whoever possesses any listed chemical, with knowledge that the
recordkeeping or reporting requirements of section 310 [21 USCS § 830} have not
been adhered to, if after such knowledge is acquired, such person does not take
immediate steps to remedy the violation shall be fined under title 18, United
States Code, or imprisoned not more than one year, or both.
(g) Internet sales of date rape drugs.
9

(1) Whoever knowingly uses the internet to distribute a date rape drug to
any person, knowing or with reasonable cause to believe that(A) the drug would be used in the commission of criminal sexual
conduct; or
(B) the person is not an authorized purchaser;
shall be fined under this title or imprisoned not more than 20 years, or
both.
(2) As used in this subsection:
(A) The term "date rape drug" means(i) gamma hydroxybutyric acid (GHB) or any controlled substance
analogue of GHB, including gamma butyrolactone (GBL) or 1,4-butanediol;
(ii) ketamine;
(iii) flunitrazepam; or
(iv) any substance which the Attorney General designates, pursuant
to the rulemaking procedures prescribed by section 553 of title 5, United States
Code [5 USCS § 553], to be used in committing rape or sexual assault.
The Attorney General is authorized to remove any substance from the
list of date rape drugs pursuant to the same rulemaking authority.
(B) The term "authorized purchaser" means any of the following
persons, provided such person has acquired the controlled substance in
accordance with this Act:
(i) A person with a valid prescription that is issued for a legitimate
medical purpose in the usual course of professional practice that is based upon a
qualifying medical relationship by a practitioner registered by the Attorney
General. A "qualifying medical relationship" means a medical relationship that
exists when the practitioner has conducted at least 1 medical evaluation with the
authorized purchaser in the physical presence of the practitioner, without regard to
whether portions of the evaluation are conducted by other heath [health]
professionals. The preceding sentence shall not be construed to imply that 1
medical evaluation demonstrates that a prescription has been issued for a
legitimate medical purpose within the usual course of professional practice.
(ii) Any practitioner or other registrant who is otherwise authorized
by their registration to dispense, procure, purchase, manufacture, transfer,
distribute, import, or export the substance under this Act.
(iii) A person or entity providing documentation that establishes the
name, address, and business of the person or entity and which provides a
legitimate purpose for using any "date rape drug" for which a prescription is not
required.
(3) The Attorney General is authorized to promulgate regulations for
record-keeping and reporting by persons handling 1,4-butanediol in order to
implement and enforce the provisions of this section. Any record or report
required by such regulations shall be considered a record or report required under
this Act.
(h) Offenses involving dispensing of controlled substances by means of
the Internet.
10

(1) In general. It shall be unlawful for any person to knowingly or
intentionally—
(A) deliver, distribute, or dispense a controlled substance by means of
the Internet, except as authorized by this title; or
(B) aid or abet (as such terms are used in section 2 of title 18, United
States Code) any activity described in subparagraph (A) that is not authorized by
this title.
(2) Examples. Examples of activities that violate paragraph (1) include,
but are not limited to, knowingly or intentionally—
(A) delivering, distributing, or dispensing a controlled substance by
means of the Internet by an online pharmacy that is not validly registered with a
modification authorizing such activity as required by section 303(f) [21 USCS §
823(f)] (unless exempt from such registration);
(B) writing a prescription for a controlled substance for the purpose of
delivery, distribution, or dispensation by means of the Internet in violation of
section 309(e) [21 USCS § 829(e)];
(C) serving as an agent, intermediary, or other entity that causes the
Internet to be used to bring together a buyer and seller to engage in the dispensing
of a controlled substance in a manner not authorized by sections [section] 303(f)
or 309(e) [21 USCS § 823(f) or 829(e)];
(D) offering to fill a prescription for a controlled substance based
solely on a consumer's completion of an online medical questionnaire; and
(E) making a material false, fictitious, or fraudulent statement or
representation in a notification or declaration under subsection (d) or (e),
respectively, of section 311 [21 USCS § 831].
(3) Inapplicability.
(A) This subsection does not apply to(i) the delivery, distribution, or dispensation of controlled substances
by nonpractitioners to the extent authorized by their registration under this title;
(ii) the placement on the Internet of material that merely advocates
the use of a controlled substance or includes pricing information without
attempting to propose or facilitate an actual transaction involving a controlled
substance; or
(iii) except as provided in subparagraph (B), any activity that is
limited to(I) the provision of a telecommunications service, or of an Internet
access service or Internet information location tool (as those terms are defined in
section 231 of the Communications Act of 1934 [47 USCS § 231]); or
(II) the transmission, storage, retrieval, hosting, formatting, or
translation (or any combination thereof) of a communication, without selection or
alteration of the content of the communication, except that deletion of a particular
communication or material made by another person in a manner consistent with
section 230(c) of the Communications Act of 1934 [47 USCS § 230(c)] shall not
constitute such selection or alteration of the content ofthe communication.

11

(B) The exceptions under subclauses (I) and (11) of subparagraph
(A)(Hi) shall not apply to a person acting in concert with a person who violates
paragraph (1).
(4) Knowing or intentional violation. Any person who knowingly or
intentionally violates this subsection shall be sentenced in accordance with
subsection (b).
(21 U.S.C. § 841 (As amended Aug. 3, 2010, P.L. 111-220, §§ 2(a), 4(a), 124 Stat. 2372.))
21 U.S.C. § 846 provides:
Any person who attempts or conspires to commit any offense defined in
this subchapter shall be subject to the same penalties as those prescribed for the
offense, the commission of which was the object of the attempt or conspiracy. Id.
21 U.S.C. §846
18 U.S.C. § 924(c) provides:
(c)(1)(A) Except to the extent that a greater minimum sentence is
otherwise provided by this subsection or by any other provision of law, any
person who, during and in relation to any crime of violence or drug trafficking
crime (including a crime of violence or drug trafficking crime that provides for an
enhanced punishment if committed by the use of a deadly or dangerous weapon or
device) for which the person may be prosecuted in a court of the United States,
uses or carries a firearm, or who, in furtherance of any such crime, possesses a
firearm, shall, in addition to the punishment provided for such crime of violence
or drug trafficking crime(i) be sentenced to a term of imprisonment of not less than 5 years;
(ii) if the firearm is brandished, be sentenced to a term of imprisonment of
not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a term of imprisonment of
not less than 10 years.
(B) if the firearm possessed by a person convicted of a violation of this
subsection(i) is a short-barreled rifle, short-barreled shotgun, or semiautomatic
assault weapon, the person shall be sentenced to a term of imprisonment of not
less than 10 years; or
(ii) is a machinegun or a destructive device, or is equipped with a firearm
silencer or firearm muffler, the person shall be sentenced to a term of
imprisonment of not less than 30 years.
(C) In the case of a second or subsequent conviction under this subsection,
the person shall—
(i) be sentenced to a term of imprisonment of not less than 25 years; and
(ii) if the firearm involved is a machinegun or a destructive device, or is
equipped with a firearm silencer or firearm muffler, be sentenced to imprisonment
for life.
12

(D) Notwithstanding any other provision of law—
(1) a court shall not place on probation any person convicted of a violation
of this subsection; and
(ii) no term of imprisonment imposed on a person under this subsection
shall run concurrently with any other term of imprisonment imposed on the
person, including any term of imprisonment imposed for the crime of violence or
drug trafficking crime during which the firearm was used, carried, or possessed.
(2) For purposes of this subsection, the term "drug trafficking crime"
means any felony punishable under the Controlled Substances Act (21 U.S.C. 801
et seq.), the Controlled Substances Import and Export Act (21 U.S.C. 951 et seq.),
or the Maritime Drug Law Enforcement Act (46 U.S.C. App. 1901 et seq.).
(3) For purposes of this subsection the term "crime of violence" means an
offense that is a felony and—
(A) has as an element the use, attempted use, or threatened use of physical
force against the person or property of another, or
(B) that by its nature, involves a substantial risk that physical force against
the person or property of another may be used in the course of committing the
offense.
(4) For purposes of this subsection, the term "brandish" means, with
respect to a firearm, to display all or part of the firearm, or otherwise make the
presence of the firearm known to another person, in order to intimidate that
person, regardless of whether the firearm is directly visible to that person. Id.
Fed. R. Crim. P. 52 provides:
Rule 52. Harmless Error and Plain Error.
(a) Harmless error. Any error, defect, irregularity or variance which does not
affect substantial rights shall be disregarded.
(b) Plain error. Plain errors or defects affecting substantial rights may be noticed
although they were not brought to the attention of the court. Id. (As amended Dec.
26,1944, eff March 21,1946.)

13

r

STATEMENT OF THE CASE
On or about 2-6-18 Tyrone Cammon was charged with violation of 18 U.S.C. § 922(g)(1)
(possession of a firearm and ammunition by a convicted felon) (Counts 1, 2, 5); 21 U.S.C. §
841(a)(1) and 21 U.S.C. § 841(b)(1)(C) (possession with intent to distribute fentanyl) (Count 3);
18 U.S.C. § 924(c)(l)(A)(i) (possession of a firearm in furtherance of a drug trafficking crime )
(Count 4); 21 U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(C) (possession with intent to
distribute heroin) (Count 6); 21 U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(B) (possession
with intent to distribute Methoxyacetlyfentanyl, Carfentanil and Fentanyl Pharmacophore)
(Count 7).
These charges arose from evidence seized from the residence of a third party where
petitioner was staying as an overnight guest. Police possessed an arrest warrant for petitioner but
no search warrant. While police could have arrested petitioner outside the residence, they waiting
until he entered the residence to go into the residence and arrest him. Evidence was seized during
an ostensible “exigent circumstances” at the time of the arrest was material to his charges and
conviction.
He was arraigned on or about 2-23-18 at which time he pleaded not guilty to the charged
violations.
On 1-6-19, counsel filed a motion to suppress. In this motion, counsel argued, inter alia,
that the Fourth Amendment was violated by police when they entered the residence of Mr.
Cammon’s sister to arrest him without a search warrant. (Case l:18-cr-58-DCN-l, Entry # 35)
On 2-14-19, a hearing was held on the motion to suppress. At the hearing the arresting
officers testified that they ‘didn’t have time’ to arrest Mr. Cammon when he was outside the

14

residence so that’s why they entered without a search warrant. (Case l:18-cr-58-DCN-l, Entry #
43)

On 2-14-19, the District Court denied the motion to suppress by an order handed down
from the bench. In denying the motion to suppress, the District Court held, inter alia, that,
“...Patton (sic) versus New York says when you have a valid warrant, you can go
in and effect an arrest...”
(Appendix C)
On or about 8-19-19 Mr. Cammon proceeded to trial. (Appendix B) At trial, the evidence
seized from the warrantless search of the residence of Mr. Cammon’s sister was material to his
conviction.
On 8-22-19, Mr. Cammon was found guilty by the jury as to violation of 18 U.S.C. §
922(g)(1) (possession of a firearm and ammunition by a convicted felon) (Counts 2, 5); 21
U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(C) (possession with intent to distribute fentanyl)
(Count 3); 18 U.S.C. § 924{c)(l)(A)(i) (possession of a firearm in furtherance of a drug
trafficking crime ) (Count 4); 21 U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(C) (possession
with intent to distribute heroin) (Count 6); 21 U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(B)
(possession with intent to distribute Methoxyacetlyfentanyl, Carfentanil and Fentanyl
Pharmacophore) (Count 7). (Appendix B)
When the Presentence Report was prepared, the Probation Officer recommended finding
an Adjusted Offense Level of 28 which was increased to a Total Offense Level of 37 under the
Career Offender guideline and a Criminal History of “V” which resulted in a guideline
sentencing range 420 (360+60) months with a statutory mandatory minimum of 10 years on the
drug charges and 5 years consecutive on the 18 U.S.C. § 924(c)(1)(A). (Presentence Report,
H42,45, 85-87).

15

On 12-12-19, Mr. Cammon appeared for sentencing. At sentencing, Mr. Cammon
personally objected that he’d never been provided a personal copy of the Presentence Report to
possess. Neither the government nor defense counsel had any other objections.
On 12-12-19, Mr. Cammon was sentenced to 360 (300+60) months incarceration for
violations of 18 U.S.C. § 922(g)(1) (possession of a firearm and ammunition by a convicted
felon) (Counts 2, 5); 21 U.S.C. § 841(a)(1) and 21 U.S.C. § 841(b)(1)(C) (possession with intent
to distribute fentanyl) (Count 3); 18 U.S.C. § 924(c)(l)(A)(i) (possession of a firearm in
furtherance of a drug trafficking crime ) (Count 4); 21 U.S.C. § 841(a)(1) and 21 U.S.C. §
841(b)(1)(C) (possession with intent to distribute heroin) (Count 6); 21 U.S.C. § 841(a)(1) and
21 U.S.C. § 841(b)(1)(B) (possession with intent to distribute Methoxyacetlyfentanyl,
Carfentanil and Fentanyl Pharmacophore) (Count 7). This sentence represented an Adjusted
Offense Level of 28 which was increased to a Total Offense Level of 37 under the Career
Offender guideline and a Criminal History of “V” which resulted in a guideline sentencing range
420 (360+60) months with a statutory mandatory minimum of 10 years on the drug charges and
5 years consecutive on the 18 U.S.C. § 924(c)(1)(A). (Appendix B)
The judgment was entered on 12-13-19.
On 12-17-19, a Notice of Appeal was filed. On direct appeal, counsel argued, inter alia,
that the evidence seized in the warrantless search of Mr. Cammon’s sister’s residence should
have been suppressed under the Fourth Amendment as construed in Steagald v. United States,
451 U.S. 204 (1981) in light ofMinnesota v. Olson, 495 U.S. 91,96-97 (1990).
On 3-9-21, the Court of Appeals denied Mr. Cammon’s appeal. In denying the appeal, the
Court of Appeals held, inter alia, that Payton v. New York, 445 U.S. 573 (1980) controlled
stating,
16

1

.. It is generally understood that Payton’s reach extends beyond “a dwelling in
which the suspect lives” to the dwellings of relevant third parties, so long as
officers have a warrant for a suspect’s arrest and a reason to believe the suspect is
inside.”
United States v. Common, 2021 U.S. App. LEXIS 7094 **5-6; 849 Fed. Appx. 541; 2021 FED
App. 0122N (6th Cir. 3-9-21).
Mr. Cammon demonstrates within that (A) this Court should grant his Petition For Writ
Of Certiorari to resolve a conflict between Payton v. New York and Steagald v. United States in
light of Minnesota v. Olson; and (B) this Court should grant his Petition For Writ Of Certiorari
because the court of appeals for the Sixth Circuit has so far departed from the accepted and usual
course ofjudicial proceedings as to call for an exercise of this Court’s power of supervision.

17

REASONS FOR GRANTING THE WRIT
1.)

THIS COURT SHOULD GRANT MR. CAMMON’S PETITION
FOR WRIT OF CERTIORARI TO RESOLVE A CONFLICT
BETWEEN PAYTON v. NEW YORK AND STEAGALD v. UNITED
STATES IN LIGHT OF MINNESOTA v. OLSON

Supreme Court Rule 10 provides in relevant part as follows:
Rule 10.
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when there are
special and important reasons therefor. The following, while neither controlling
nor fully measuring the Court’s discretion, indicate the character of reasons that
will be considered:
a United States court of appeals has rendered a decision in conflict
(a)
with the decision of another United States court of appeals on the same
matter; or has decided a federal question in a way in conflict with a state
court of last resort; or has so far departed from the accepted and usual
course of judicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court’s power of supervision.. .Id.
Supreme Court Rule 10(a).
1A.)

While Payton v. New York Allows Warrantless Entry To An Arrestee’s
Residence To Execute The Warrant And Steagald v. United States
Protects A Third Party’s Fourth Amendment Right To A Search
Warrant Before Police Can Enter To Arrest Someone Else Present In
The Residence, And Minnesota v. Olson Protects Overnight Guests In
A Residence, The Court Has Never Decided Whether Steagald
Protects Overnight Guests Creating Confusion In The Lower Courts

In Payton v. New York, 445 U.S. 573 (1980), this Court held that an arrest warrant carries
with it limited authority to enter a subject's dwelling when there is "reason to believe" he is
within. Id. 445 U.S. at 603.
In Steagald v. United States, 451 U.S. 204 (1981), this Court held that a search of a
defendant’s home by government agents, pursuant to arrest warrant for another individual, was
18

violative of defendant's Fourth Amendment right to privacy, absent search warrant. Id. 451 U.S.
at 223.
In Minnesota v. Olson, 495 U.S. 91, 96-97 (1990), this Court held that a warrantless,
nonconsensual entry into house where suspect was overnight guest violated the suspect's rights
under the Fourth Amendment. Id. See also Minnesota v. Carter, 525 U.S. 83 (1999) (same).
As time has progressed, the lower courts, as did the court below, have simply ignored
Steagald v. United States, 451 U.S. 204 (1981) and, held instead that,
“... It is generally understood that Payton’s reach extends beyond “a dwelling in
which the suspect lives” to the dwellings of relevant third parties, so long as
officers have a warrant for a suspect’s arrest and a reason to believe the suspect is
inside.”
United States v. Common, 2021 U.S. App. LEXIS 7094 **5-6; 849 Fed. Appx. 541; 2021 FED
App. 0122N (6th Cir. 3-9-21). See United States v. Bohannon, 824 F.3d 242, 249-50 (2d Cir.
2016) (collecting cases) 1
The question of whether the subject of an arrest warrant can object to the absence of a
search warrant when he is apprehended in another person's home remains unanswered by the this
Court to this day, United States v. Bohannon, 824 F.3d 242, 249-50 (2d Cir. 2016). In light of this
Court’s decisions in Minnesota v. Olson, 495 U.S. 91, 96-97 (1990) and Minnesota v. Carter, 525
U.S. 83 (1999), the question should be answered to resolve uncertainty in the courts below and to
guide the application of Steagald v. United States, 451 U.S. 204 (1981).

i

United States v. Hollis, 780 F.3d 1064, 1068-69 (11th Cir. 2015); United States v. Jackson, 576
F.3d 465, 468 (7th Cir. 2009); United States v. Kern, 336 F. App’x 296, 297-98 (4th Cir. 2009);
United States v. McCarson, 527 F.3d 170, 172-73, 381 U.S. App. D.C. 219 (D.C. Cir. 2008);
United States v. Pruitt, 458 F.3d 477, 482 (6th Cir. 2006); United States v. Agnew, 407 F.3d 193,
197 (3d Cir. 2005); United States v. Kaylor, 877 F.2d 658, 663 & n.5 (8th Cir. 1989); United
States v. Underwood, 111 F.2d 482, 484 (9th Cir. 1983) (en banc)
19

IB.)

In Light Of Minnesota v. Olson, 495 U.S. 91, 96-97 (1990)., The Lower
Courts Erred In Holding That Payton v. New York, 445 U.S. 573 (1980)
Controlled The Lawfulness Of The Warrantless Search Of The Third
Party Residence For Petitioner-Arrestee Instead Of Steagald v. United
States, 451 U.S. 204 (1981).

As set forth in the Statement of the Case, supra, the Court of Appeals for the Sixth Circuit
squarely held that Payton v. New York, 445 U.S. 573 (1980) controlled whether the evidence
seized in the warrantless search of petitioner’s sister’s apartment based on the arrest warrant for
petitioner complied with the Fourth Amendment even though he was an overnight guest.
(Statement of the Case) (See Appendix A)
This decision by the Sixth Circuit directly conflicts with the decisions of this Court in
Minnesota v. Olson, 495 U.S. 91, 96-97 (1990), this Court held that a warrantless, nonconsensual
entry into house where suspect was overnight guest violated the suspect's rights under the Fourth
Amendment. Id, See also Minnesota v. Carter, 525 U.S. 83 (1999) (same).
Had the lower court followed Olson and Carter, the evidence seized in petitioner’s
sister’s residence would have been suppressed resulting in, at most, a dramatically reduced
sentence.
The question of whether the subject of an arrest warrant can object to the absence of a
search warrant when he is apprehended in another person's home remains unanswered by the
Supreme Court to this day, United States v. Bohannon, 824 F.3d 242, 249-50 (2d Cir. 2016). In
light of this Court’s decisions in Minnesota v. Olson, 495 U.S. 91, 96-97 (1990) and Minnesota v.
Carter, 525 U.S. 83 (1999), the question should be answered to resolve uncertainty in the courts
below.

20

20

THIS COURT SHOULD GRANT MR. CAMMON’S PETITION
FOR WRIT OF CERTIORARI BECAUSE THE COURT OF
APPEALS FOR THE SIXTH CIRCUIT HAS SO FAR DEPARTED
FROM THE ACCEPTED AND USUAL COURSE OF JUDICIAL
PROCEEDINGS AS TO CALL FOR AN EXERCISE OF THIS
COURT’S POWER OF SUPERVISION

This Court has never hesitated to exercise it’s power of supervision where the lower
courts have substantially departed from the accepted and usual course of judicial proceedings
with resulting injustice to one of the parties. McNabb v. United States, 318 U.S. 332 (1943).2 As
the Court stated in McNabb:
... the scope of our reviewing power over convictions brought here from the
federal courts is not confined to ascertainment of Constitutional validity. Judicial
supervision of the administration of criminal justice in the federal courts implies
the duty of establishing and maintaining civilized standards of procedure and
evidence.
McNabb, 318 U.S. at 340.
2A.)

Multiple Errors In The Courts Below Mandate That Mr. Cammon’s
Conviction And/Or Sentence Be Vacated.

There is no indication that Mr. Cammon’s indictment was returned in open court. He was
therefore denied his Fifth Amendment constitutional rights. . Renigar v. United States, 172 F.
646; 1909 U.S. App. LEXIS 5021 (4th Cir. 1909).
The government unlawfully used Mr. Cammon’s prior convictions as predicates for the
Career Offender enhancement. The priors used only required a negligent mens rea and were,
therefore, violative of this Court’s decision in Borden v. United States, No. 19-5410, 2021 U.S.
LEXIS 2990, at * 1-4 (6-10-21).

2 See also GACA v. United States, 411 U.S. 618 (1973); United States v. Jacobs, 429 U.S. 909
(1976); Rea v. United States, 350 U.S. 214 (1956); Benanti v. United States, 355 U.S. 96 (1957);
United States v. Behrens, 375 U.S. 162 (1963); Elkins v. United States, 364 U.S. 206 (I960)..
21

The exigent circumstances search in this case was violative of the Fourth Amendment
because the exigent circumstances were deliberately created by the police. McDonald v. United
States, 335 U.S. 451, 93 L. Ed. 153,69 S. Ct. 191 (1948).
The district court unlawfully failed to properly inquire when the jurors reported a biased
juror. (Trial Transcript page 444) This denied Mr. Cammon his Sixth Amendment right to trial by
an unbiased jury. Dyer v. Calderon, 151 F.3d 970; 1998 U.S. App. LEXIS 18171 (9th Cir. 1998).
Further Grounds
Mr. Cammon’s conviction and sentence are violative of the First, Second, Fourth, Fifth,
Sixth, And Eighth Amendments to the constitution. More specifically, Mr. Cammon’s conviction
and sentence are violative of his right to freedom of speech and to petition and his right to keep
and bear arms and his right to be free of unreasonable search and seizure, his right to due process
of law, his rights to counsel, to jury trial, to confrontation of witnesses, to present a defense, and
to compulsory process, and his right to be free of Cruel and unusual punishment under the
constitution.
The evidence was insufficient. The government falsified and withheld material evidence.
The District Court unlawfully determined Mr. Cammon’s sentence.
First Step Act
Mr. Cammon is entitled to retroactive application of the First Step Act, 115 P.L. 391; 132
Stat. 5194; 2018 Enacted S. 756; 115 Enacted S. 756 (12-21-2018) as hereinafter more fully
appears.
Applying the First Step Act to non-final criminal cases pending on direct review at the
time of enactment is consistent with (1) longstanding authority applying favorable changes to
penal laws retroactively to cases pending on appeal when the law changes and (2) the text and
22

remedial purpose of the Act. To the extent the Act is ambiguous, the rule of lenity requires the
ambiguity be resolved in the defendant’s favor. United States v. Santos, 553 U.S. 507, 514
(2008); United States v. Granderson, 511 U.S. 39, 54 (1994).
Preliminarily, “a presumption of retroactivity” “is applied to the repeal of punishments.”
Kaiser Aluminum & Chemical Corp. v. Bonjorno, 494 U.S. 827, 841 & n.l (1990) (Scalia, J.,
concurring). “[I]t has been long settled, on general principles, that after the expiration or repeal
of a law, no penalty can be enforced, nor punishment inflicted, for violations of the law
committed while it was in force, unless some special provision be made for that purpose by
statute.” Id. (quoting Yeatonv. United States, 5 Cranch 281, 283 (1809)). The common law
principle that repeal of a criminal statute abates all prosecutions that have not reached final
disposition on appeal applies equally to a statute’s repeal and re-enactment with different
penalties and “even when the penalty [is] reduced.” Bradley v. United States, 410 U.S. 605, 60708 (1973).
This Court has long recognized that a petitioner is entitled to application of a positive
change in the law that takes place while a case is on direct appeal (as opposed to a change that
takes place while a case is on collateral review). Bradley v. School Board of City of Richmond,
416 U.S. 696, 710-11 (1974). The Court expressly anchored its holding in Bradley on the
principle that an appellate court “is to apply the law in effect at the time it renders its decision,
unless doing so would result in manifest injustice” or there is “clear legislative direction to the
contrary.” Id., 711, 715. It explained that this principle originated with Chief Justice Marshall in
United States v. Schooner Peggy, 1 Cranch 103 (1801): “[I]f subsequent to the judgment and
before the decision of the appellate court, a law intervenes and positively changes the rule which
governs, the law must be obeyed.” Id., 712 (quoting Schooner Peggy, 1 Cranch at 110).
23

Moreover, a change in the law occurring while a case is pending on appeal is to be given effect
“even where the intervening law does not explicitly recite that it is to be applied to pending
cases....”Bradley, 416 U.S. at 715.
Since Mr. Cammon’s judgment was not yet “final” on 12-21-18 when the First Step Act
was enacted, he is entitled to retroactive application of all relevant portions of the Act. Id.
These claims in Argument 2A are submitted to preserve Mr. Cammon’s right to raise
them in a motion pursuant to 28 U.S.C. § 2255 if this Court declines to reach their merits.
Based on the foregoing, the decision by the Court of Appeals for the Sixth Circuit has so
far departed from the accepted and usual course of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an exercise of this Court’s power of supervision. Id.
McNabb v. United States, 318 U.S. 332 (1943); GACA v. United States, 411 U.S. 618 (1973);
United States v. Jacobs, 429 U.S. 909 (1976); Rea v. United States, 350 U.S. 214 (1956); Benanti
v. United States, 355 U.S. 96 (1957); United States v. Behrens, 375 U.S. 162 (1963); Elkins v.
United States, 364 U.S. 206 (1960).
Based on all of the foregoing, this Court should grant certiorari and review the judgment
of the Court of Appeals for the Sixth Circuit in Mr. Cammon’s case.

24

CONCLUSION
For all of the foregoing reasons, Petitioner Tyrone Cammon respectfully prays that his
Petition for Writ of Certiorari be GRANTED and the case set for argument on the merits.
Alternatively, Petitioner respectfully prays that this Court GRANT certiorari, VACATE
the order affirming his direct appeal and REMAND3 to the court of appeals for reconsideration
in light ofMinnesota v. Olson, 495 U.S. 91, 96-97 (1990) and Steagald v. United States, 451 U.S.
204(1981).
Tyrone Cammon
Petitioner
65353-060
P.O. Box 2000
Bruceton Mills, WV 26525
Date:

3 For authority on “GVR” orders, see Lawrence v. Chater, 516 U.S. 163, 167-68, 133 L. Ed. 2d
545, 116 S. Ct. 604(1996).
25

No.

Supreme Court of tfje ®ntteir &tate£
TYRONE CAMMON,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
APPENDIX
COMES NOW PETITIONER Tyrone Cammon and submits the attached appendix
pursuant to Supreme Court Rules.
Tyrone Cammon
Petitioner
65353-060
P.O. Box 2000
Bruceton Mills, WV 26525
Date:

26

APPENDIX A
ORDER & JUDGMENT OF THE COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DATED 3-9-21

